<html>
<title> - END NEGLECTED TROPICAL DISEASES ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  END NEGLECTED TROPICAL DISEASES ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1415

                               __________

                             JUNE 15, 2017

                               __________

                           Serial No. 115-37

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
25-842 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1415, End Neglected Tropical Diseases Act...................     2

                                APPENDIX

Markup notice....................................................    22
Markup minutes...................................................    23
Markup summary...................................................    24

 
                  END NEGLECTED TROPICAL DISEASES ACT

                              ----------                              


                        THURSDAY, JUNE 15 , 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11:30 a.m., in 
room 2255 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
morning to everyone.
    Pursuant to notice, we are here this morning to work up 
Title I of H.R. 1415, the End Tropical Diseases Act.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT
    

    Mr. Smith. Title I is in jurisdiction of the Committee on 
Foreign Affairs; whereas, Title II is in the Energy and 
Commerce Committee, so that will have to be done by them and we 
are pushing hard for that to happen.
    I know that the measure is unopposed and no amendments have 
been put forward.
    I also note that the subcommittee will reconvene following 
this markup for a hearing. With other events that have been 
scheduled and upon consultation with Ranking Member Bass and 
pursuant to yesterday's notice, we intend to consider this bill 
in an expedited manner.
    All members have a copy of H.R. 1415 before them. After we 
have concluded our expedited consideration, I would be glad to 
recognize any member, including myself and the ranking member, 
or Dr. Bera, since he is serving in that position right now, 
for any statements they might have on the issue.
    All members are given leave to assert written remarks into 
the record, if they so choose.
    Seeing again that we have a reporting quorum present, 
without objection, H.R. 1415, the End Tropical Diseases Act, 
Title I only, is considered as read.
    The Chair moves that it be adopted.
    All those in favor, say aye.
    All those opposed, say no.
    The ayes have it, in the opinion of the Chair. The item is 
adopted.
    Without objection, the measure is reported favorably to the 
full committee and the staff is directed to make any technical 
and conforming changes.
    I will just say a few opening comments on this legislation.
    Neglected tropical diseases--and let me just say, too, this 
is the second Congress that we were trying to get this 
legislation passed. We got it out of our full committee last 
year. Regrettably, it stalled in the Energy and Commerce 
Committee but my hope is that that will not be the case this 
year.
    Neglected tropical diseases are a group of 17 parasitic and 
bacterial diseases which blind, disable, disfigure, and 
sometimes kill victims from among the more than 1 billion of 
the world's poorest people, trapping the most marginalized 
communities into a cycle of poverty. These diseases can keep 
children from attending school and their parents from working, 
and cause excessive bleeding by mothers during birth and 
results often in low birth weight babies. NTDs, therefore, 
constitute a significant hurdle to achieving economic growth 
and dilute the impact of foreign assistance programs.
    While tropical diseases primarily affect communities in 
developing countries, outbreaks have been reported in the 
United States and developing countries in recent years, such as 
the West Nile virus, Dengue fever, and most recently Zika.
    The most common NTDs can be controlled and eliminated; 
however, there is still much work to be done to prepare for 
currently unknown diseases that may appear on the international 
scene and to reach the World Health Organization's control and 
elimination goals by 2020.
    To achieve these goals, heightened support is needed now 
from both new and longstanding partners. H.R. 1415 supports the 
control and elimination of NTDs in the United States by, among 
other things, supporting USAID's NTD program to better 
integrate NTD control and elimination efforts with other 
development issues such as HIV/AIDS, malaria, water and 
sanitation, and education; conduct research and development for 
improved drugs, diagnostics, and vaccines to control or to 
eliminate NTDs; directing the U.S. Government to advocate for 
increased efforts to address NTDs among international 
institutions, such as the U.N., WHO, and the World Bank; 
calling for the Department of Health and Human Services to 
submit a report on NTDs in the U.S. to better understand the 
epidemiology, impact, and appropriate funding needed to address 
NTDs domestically; encouraging the creation of one or more NTD 
Centers of Excellence.
    I would note parenthetically that in the year 2000, I 
authored legislation on the issue of autism and the mainstay of 
the legislation was a series of those Centers of Excellence. 
And those Centers of Excellence and the work that now CDC and 
NIH do on autism has resulted in a major push to try to help 
those with autism, discover root causes, and to promote early 
childhood intervention and it came out of those Centers of 
Excellence. So this could be a game changer, we think, in a 
game that has to be changed for the sake of the poor and 
marginalized communities.
    It also would establish a panel on intestinal worm 
infections to evaluate and make recommendations regarding 
potential solutions to worm infections, which impact more than 
1 billion people worldwide, including 600 million school-aged 
children.
    Secretary of State Rex Tillerson told the Foreign Affairs 
Committee, full committee, yesterday that the administration 
was committed to remaining a leader in areas including global 
health. They can demonstrate that commitment by continuing to 
support the work done by CDC and the National Institutes of 
Health, and the U.S. Agency for International Development. And 
I do believe that as we move forward on this budget, those 
gaping cuts will not materialize. And I know I and others will 
work hard to ensure that we do more, in some cases, rather than 
less.
    It is long past time for Congress to affirm this work, 
particularly in the area of NTDs. And I want to thank Ranking 
Member Bass, Congressmen Dan Donovan, Gregory Meeks, Sanford 
Bishop, and Eleanor Holmes Norton for joining us as early 
cosponsors of this legislation.
    And I would like to yield to Dr. Bera, if he has any 
comments he would like to make.
    Mr. Bera. Great. Thank you, Mr. Chairman. I will keep my 
comments brief but I think this is an important piece of 
legislation. I look at this as a physician who has worked 
overseas.
    And you know we don't always think about neglected tropical 
diseases. The folks sitting around the table at home may not be 
talking about schistosomiasis or trachoma but the truth is, 
these are diseases that affect millions around the world. And 
the reason why investing in this research and looking for cures 
are so important, it is a reflection of not only our values, as 
a nation, to engage with our allies and other like-valued 
countries around the world to relieve suffering, we also know 
that the world is much more interconnected today.
    You know diseases that emerge much like Ebola a few years 
ago or Zika in one part of the world certainly move and spread. 
So, we can't just think about how we address health and disease 
here in the United States. We have also got to go where those 
diseases are and look for those discoveries.
    So you know it is my hope that this moves quickly through 
the full committee and to the floor of the House. And, again, 
it is a reflection of who we are as a nation, our values to be 
concerned and focus on that suffering around the world.
    So, thank you, Mr. Chairman. I will yield back.
    Mr. Smith. Thank you, Dr. Bera.
    Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. I just want to take a 
moment to thank you for your leadership in this area. I mean 
global health has become a great interest of mine since I got 
here 2 years ago. We deal daily with the preventable diseases 
throughout the world.
    As Dr. Bera says, we are a compassionate, leading Nation. 
We outsource our abilities to help others. As he also 
mentioned, because of the ability for people to travel, many 
diseases that may not affect our Nation now because people 
traveling to our country affect us as well but, through our 
compassion and leadership, this Nation should do everything it 
can to relieve other countries of diseases that are preventable 
and nonexistent in our own country.
    You have been a leader in this area for so many, many 
years, I just wanted to thank you, Mr. Chairman, and I thank my 
colleague for supporting this legislation.
    Mr. Smith. Thank you very much. Mr. Suozzi.
    Mr. Suozzi. I will associate my remarks with everything 
that has been said already and thank you for your leadership. 
Thank you.
    Mr. Smith. Well, thank you. Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman. Very briefly, I think 
budget hawks might look at this and wonder what the purview was 
of this organization as it relates to this action. I would 
answer them by saying it is difficult, if not impossible, to 
separate global health from American health; that in a world 
with intercontinental travel, in a world that shrinks by the 
day conceptually, the idea to combat these NTDs abroad, rather 
than at home, might parallel the hawkish line that some take on 
the War on Terror.
    I would associate myself with the gamut of individuals on 
this committee and submit that, while it is not just being a 
good neighbor, it is also being a good tenant in our home and 
this is good policy at every level. Thank you.
    Mr. Smith. Mr. Garrett, thank you so very much.
    Thanks to all the members of the subcommittee for their 
support and their excellent remarks. Without further ado, the 
markup is concluded.
    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
